Appendix A: Ninth Circuit's Opinion
United States v. Lozano
United States Court of Appeals for the Ninth Circuit
January 14, 2021 2 •• , Submitted; January 19, 2021 , Filed
Nos. 19-50285, 19-50286
Reporter

833 Fed. Appx. 705 *; 2021 U.S. App. LEXIS 1388 ** ; 2021 WL 164924UNITED STATES OF AMERJCA, PlaintiffAppellee, v. CYNTHIA LOZANO, Defendant-Appellant.

Notice: PLEASE REFER TO FEDERAL RULES OF A PPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.
Subsequent History: Rehearing denied by, En bane, Rehearing denied by United States v. Lozano. 202 I US App.
LEXIS 10825 (9th Cir .. Aw. 15. 2021)
Prior History: I** I I Appeal from the United States District Court for the Southern District of California. D.C. Nos.
3: 13-cr-0 I 354-AJB-1, 3: 16-cr-0 1332-AJB-3. Anthony J. Battaglia, District Judge, Presiding.

l nited States v. Lozano. 2020 US Oist. LEXIS 328./6. 2020 1/ L 9056 76 (SD Cal., Feb. 25, 2020J

Core Terms
sentences, obligations, corrected, revise, district court, pronounced, judgments, run consecutively , amended
judgment, legal right, consecutive, unambiguous, indicates, Clarify, argues, words

Counsel: For UNITED STATES OF AMERJCA , Plaintiff - Appellee : Andrew Chiang, Christopher Paul Tenorio,
Esquire, Assistant U.S . Attorney, Daniel Earl Zipp, Assistant U.S. Attorney, Office of the US Attorney, San Diego,
CA .
For CYNTHIA LOZANO, Defendant - Appellant: David James Zugman, Attorney, Burcham & Zugman , San
Diego, CA.

Judges: Before: CALLAHAN and WATFORD, Circuit Judges, and RAKOFF,*** District Judge .

Z•• The panel unanimously concludes these cases are suitable for decision ases are suitable for decision without oral argument. See
Fed. R. App. P. 34(a)(2).

·•· The Honorable Jed S. Rakoff, United States District Judge for the Southern District of New York, sitting by designation.

Opinion

[*705[ ME MORANDUM*

Cynthia Lozano appeals the district court's order granting the government's Motion to Clarify Judgment Orders. 1 We
have jurisdiction under 28 U SC f 1291 and affirm.

Lozano argues that the judgments' omission that her two sentences were to run consecutively is not a clerical error
under Fedeml Rule o[ Criminal Procedure 36, but a judicial error under 1?11le 35 that had to be corrected within
fourteen days after sentencing. See Fed R. Cri111. P. 35(aJ.
"The only sentence that is legally cognizable is the actual oral pronouncement in the presence of the defendant." United
Stales 1•. 1\/11110::-Dela Rosa, ./95 F2d 253,256 (9th Cir. 197./J. "A change made under Fed R. Crim. P. 36 can do no
more than conform the sentence to the term which the record indicates was intended." United S1ates v. A:ave. 739 F 2d
./88. ./90 (9th Cir. I 98./J .
Here, the district 1**2] court did that and no more by including in the corrected judgments that Lozano's sentences
were to be served consecutively. Although the district I *706] judge misspoke and corrected himself several times
about the individual sentences, the record unambiguously indicates that he clarified no less than four times that the
sentences were to run consecutively or be a total of 175 months.

Lozano argues in the alternative that the imposition of consecutive sentences resulted from an incorrect calculation of
the Sentencing Guidelines. However, as the government notes, Lozano voluntarily dismissed her appeal of her
convictions and sentencing in 2018 . Lozano counters that the period for filing an appeal begins anew when "a district
court enters an amended judgment that revises legal rights or obligations," "even where the appeal concerns a different
matter from that revised by the district court." See UnitedStatesv. Doe. 37./ F.'Jd85 ! . 853-5./ (91hCir. 200./) .
However, as Doe makes clear, the amended judgment must "revise[] legal rights or obligations." Id Further, "[i]t is
the words pronounced by the judge at sentencing, not the words reduced to writing in the judge's
Judgment/Commitment Order, that constitute the legal sentence." United States v. Bergmann. 836 F2d I 220. 1221
(9th Cir. 1988) . Here, the unambiguous 1**31 sentences pronounced at the sentencing hearing constitute Lozano's
legal obligations, and the corrected judgments did not revise those obligations. The district court's clarification of
Lozano's judgments is AFFIRMED.

End of Document

• This disposition is not appropriate for publication and is not precedent except as provided by Ninth Circuit Rule 36-3.
1 Because

the parties are familiar with the facts, we restate only those necessary to explain our decision.

